Exhibit B

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 4th day of May, two thousand twenty-one,
Before:
ROBERT A. KATZMANN,
SUSAN L. CARNEY,
WILLIAM J.NARDINI,
Circuit Judges.

Paul Andre Jude Mariano Garcia,

ORDER
Docket No. 19-2729

Petitioner,
v.
Merrick B. Garland, United States Attorney General,
Respondent.

Petitioner having filed a petition for panel rehearing and the panel that determined the
appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

8a

Exhibit C U.S. Department o^T^tice
Executive Office fo3^mtm igration Review
Board ofImmigration Appeals
Office ofthe Clerk
5107 Leesburg Pike, Suite 2000
Falls Church, I'irginto 22041

Fufelhan, Dalla
New Haven Legal Assistance Association
205 Orange Street
New Haven, CT 06510

DHS/ICE Office of Chief Counsel - HAR
P. O. Box 230217
Hartford, CT 06123*0217

Name: GARCIA, PAUL ANDRE JUDE M...

A 047-369-752

Date of this notice: 8/1/2019

Enclosed is a copy of the Board's decision and order in the above-referenced case.
Sincerely,

L)cn/u~ C.ojxaj
Donna Carr
Chief Clerk
Enclosure
Panel Members:
Wendtland, Linda S.
MurielM
Userteam: Docket

9a

(

U.S. Department

•>

itice

Executive Office fonmmigration Review
Board ofImmigration Appeals
Office ofthe Clerk
5107 Leesburg Pike, Suite 2000
FaUs Church, Virginia 2204/

GARCIA, PAUL ANDRE JUDE MARIANO
412820/A047-369-752
160 Elm Street
Greenfield, MA 01301

Name: GARCIA, PAUL ANDRE JUDE M...

DHS/ICE Office of Chief Counsel - HAR
P. O. Box 230217
Hartford, CT 06123*0217

A 047-369-752

Date of this notice: 8/1/2019

Enclosed is a copy of the Board’s decision in the above-referenced case. This copy is being
provided to you as a courtesy. Your attorney or representative has been served with this
decision pursuant to 8 C.F.R. § 1292.5(a). If the attached decision orders that you be
removed from the United States or affirms an Immigration Judge's decision ordering that you
be removed, any petition for review of the attached decision must be filed with and received
by the appropriate court of appeals within 30 days of the date of the decision.
Sincerely,

t^OnnJL C.amJ
Donna Carr
Chief Clerk
Enclosure
Panel Members:
Wendtland, Linda S.
MurielM
Userteam: Docket

r

10a

/

.S. Department of J^^le
•

Decision

oard of Immigration Appeals

• Executive Office for Immigration Review
Falls Church, Virginia 22041

File: A047-369-752- Hartford, CT

Date:

AU6 -1 2019

In re: Paul Andre Jude Mariano GARCIA
IN REMOVAL PROCEEDINGS
APPEAL
ON BEHALF OF RESPONDENT: Dalia Fuleihan, Esquire
ON BEHALF OF DHS: Courtney Gates*Graceson
Assistant Chief Counsel
APPLICATION: Removability; cancellation of removal

The respondent, a native and citizen of Trinidad and Tobago, appeals from the Immigration
Judge’s February 22,2019, decision. In that decision, the Immigration Judge determined that the
respondent was removable under section 237(a)(2)(E)(ii) of the Immigration and Nationality Act,
8 U.S.C. § 1227(a)(2)(E)(ii), and denied his application for cancellation of removal under section
240A(a)ofthe Act, 8 U.S.C. § 1229b(a).' The Department of Homeland Security filed a motion
to dismiss the respondent’s appeal. The respondent’s request for oral argument is denied. The
appeal will be dismissed.
We review findings of fact determined by an Immigration Judge, including credibility findings,
under a “dearly erroneous” standard. 8 C.F.R. § I003.1(d)(3)(i). We review questions of law,
discretion, and judgment, and all other issues in appeals from decisions of Immigration Judges de
novo. 8 C.F.R. § I003.1(d)(3)(ii).
On appeal, the respondent argues that the Immigration Judge erred in determining that he is
removable under section 237(a)(2)(E)(ii) of the Act. The respondent also argues that the
Immigration Judge erred in determining that he had jurisdiction in light of Pereira v. Sessions,
138 S. Ct. 2105 (2018). Moreover, the respondent argues that the Immigration Judge erred in
determining that he does not warrant cancellation of removal as a matter of discretion. Finally,
the respondent raises various due process arguments.
Initially, we disagree with the respondent’s argument on appeal that the Immigration Judge
lacked jurisdiction in light ofPereira. In Matter ofBermudez-Cota, 27 I&N Dec. 441 (BIA 2018),
we held that a notice to appear that does not specify the time and place ofan alien's initial removal
hearing vests an Immigration Judge with jurisdiction over the removal proceedings and meets the
i

We note that the Immigration Judge issued two separate decisions on February 22,2019. The
first decision (“IJ1”) determined that the respondent was removable as charged and the second
decision (“IJ2”) denied the respondent’s application for relief from removal.

11a

■o-

A047<369-752
requirements of section 239(a) of the Act, 8 U.S.C. § 1229(a), so long as a notice of hearing
specifying this information is later sent to the alien.2 In this case, the record reveals that although
the notice to appear did not specify the time and date of the respondent’s initial hearing, a notice
of hearing was subsequently sent, which indicated that the respondent should appear before the
Immigration Judge on November 8,2018, at 8:30 a.m. The respondent argues on appeal that the
notice of hearing was served on him after the date of his initial hearing and he was able to attend
his hearing only because a custodial officer alerted him to the fact that he had a hearing. However,
the respondent has not established that he was denied a full and fair hearing, especially since he
was able to attend his initial hearing and he obtained a continuance at the hearing to further prepare
his case.
Turning next to the issue of removability, we agree with the Immigration Judge’s
determination that the respondent is removable under section 237(a)(2)(E)(ii) of the Act. Under
section 237(a)(2)(E)(ii) of the Act, any alien who, at any time after admission, is enjoined under a
protection order issued by a court and whom the court determines has engaged in conduct that
violates the portion of a protection order that involves protection against credible threats of
violence, repeated harassment, or bodily injury to the person or persons for whom the protection
order was issued is deportable. Whether a violation of a protection order renders an alien
removable under section 237(a)(2)(E)(ii) of the Act is not governed by the categorical approach,
even if a conviction underlies the charge; instead, an Immigration Judge should consider the
probative and reliable evidence regarding what a state court has determined about the alien's
violation. Matter ofObshatko, 27 I&N Dec. 173,176-77 (BIA 2017).3
In this case, the Immigration Judge properly found that the record reveals that on
October 1,2013, the Connecticut Superior Court determined that the respondent engaged in
conduct that violated a portion of a protection order by repeatedly harassing by telephone and
email the protected person (IJ1 at 3; Exhs. 3 & 6). We therefore agree with the Immigration
Judge’s determination that the respondent is removable under section 237(a)(2)(E)(ii) of the Act.4
Turning next to the respondent’s application for cancellation of removal, we agree with the
Immigration Judge’s determination that the respondent does not warrant relief as a matter of
discretion (IJ2 at 9-11). In determining whether a respondent merits cancellation of removal in
the exercise of discretion, we must balance the adverse factors evidencing the respondent’s
2 To the extent that the respondent challenges Matter ofBermudez-Cota, we decline to revisit that
decision at this time.
3 The respondent challenges Matter ofObshatko on appeal, but we decline to revisit that decision
at this time. Moreover, to the extent that the respondent relies on United States Court of Appeals
for the Ninth Circuit (“Ninth Circuit”) precedent in support of his argument that the categorical
approach should be applied to determine whether he is removable under section 237(a)(2)(E)(ii)
of the Act, we are not bound by the decisions of the Ninth Circuit in this case.
4 We note that the Immigration Judge also determined that there was insufficient evidence to
establish that the respondent also violated a protection order on January 18,2018 (IJ1 at 3; Exh.
7).
2

12a

V»

•A047-'369-752
undesirability as a permanent resident with the social and humane considerations presented on his
behalf to determine whether the granting of cancellation of removal appears in the best interests
of this country. Matter of
22 I&N Dec. 7(BIA 1998).
Among the factors deemed adverse to an alien are the nature and underlying circumstances of
the removability ground at issue, the presence of additional significant violations of this country’s
immigration laws, the existence of a criminal record and, if so, its nature, recency, and seriousness,
and the presence of other evidence indicative of a respondent’s bad character or undesirability as a
permanent resident of this country. Matter of C-K-7*-, 22 I&N Dec. 7. Favorable considerations
include such factors as family ties within the United States, residence of long duration in this country
(particularly when the inception of residence occurred while the respondent was of young age),
evidence of hardship to the respondent and family if deportation occurs, service in this country’s
armed forces, a history of employment, the existence of property or business ties, evidence of value
and service to the community, proof of genuine rehabilitation if a criminal records exists, and other
evidence attesting to a respondent’s good character (e.g., affidavits from family, friends, and
responsible community representatives). Matter ofC- V-T-, 22 I&N Dec. 7.
In this case, the respondent’s positive factors include his long residency in this country, which
began around 2004 when he was only 13 years old (IJ2 at 9; Tr. at 84). Moreover, the respondent
lias family ties to the United States, including a United States citizen child, a United States citizen
sister, and a United States citizen mother (IJ2 at 9; Tr. at 115-23). However, the respondent’s
name is not listed on his child’s birth certificate (IJ2 at 9). Although the respondent fears harm in
Trinidad and Tobago because of his bisexuality, we agree with the Immigration Judge’s
determination that the respondent did not submit sufficient evidence to support this contention,
and that he only established that he may experience discrimination (IJ2 at 9; Tr. at 126-29).
We agree with the Immigration Judge’s determination that the respondent’s positive factors do
not outweigh the adverse factors in his case. Even without consideration of the police report that
the respondent challenges, the respondent has an extensive criminal record, including multiple
arrests as well as a conviction for the offense of possession with intent to sell marijuana and
violating protection orders (IJ2 at 10; Tr. at 102-11; Exhs. 3 & 6). We also agree with the
Immigration Judge’s determination that the respondent did not establish his rehabilitation (IJ2
at ll).5 In summary, we recognize the positive factors presented by the respondent. Nonetheless,
after balancing them against his serious criminal record, we are unable to conclude that a grant of
relief would be in the best interests of the United States.
Finally, the respondent argues that the Immigration Judge violated his right to due process by
improperly questioning him and his mother and not considering all of the evidence of record.
However, we conclude that the respondent has not established that the Immigration Judge acted
improperly or that he did not adequately consider the record in determining that the respondent is
removable and not deserving of relief from removal. Although the Immigration Judge may have
5 The respondent argues on appeal that the Immigration Judge erred in requiring rehabilitation.
However, we conclude that the Immigration Judge properly weighed whether the respondent
established rehabilitation in determining whether he warrants relief as a matter of discretion.
3
13a

•

n

>• .

. A047-369-752
taken an active role in questioning the respondent and his mother, the record does not support the
respondent’s contention that the Immigration Judge failed to act as a neutral and impartial arbiter,
and we will not grant the respondent’s request for a new hearing before a different Immigration
Judge. See section 240(b)(1) of the Act, 8 U.S.C. § 1229a(b)(l) (stating that Immigration Judge
shall interrogate, examine, and cross-examine the alien and any witnesses).
Accordingly, the following order will be entered.
ORDER: The appeal is dismissed.

c]a
FOR THE BOARD

4
14a

»•

Exhibit D

UNITED STATES DEPARTMENT OF JUSTICE
EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
UNITED STATES IMMIGRATION COURT
HARTFORD, CONNECTICUT

File: A047-369-752

February 22,2019

In the Matter of

)

PAUL ANDRE JUDE MARIANO GARCIA

)

IN REMOVAL PROCEEDINGS
)
)

RESPONDENT

CHARGE:

Section 237(a)(2)(E)(ii) of the Immigration and Nationality
Act - violation of a protective order.

APPLICATION:

Cancellation of removal for permanent residents.

ON BEHALF OF RESPONDENT: DALIA FULEIHAN
New Haven Legal Assistance
250 Orange Street
New Haven, CT 06510

ON BEHALF OF DHS: COURTNEY GATES-GRACESON
Assistant Chief Counsel

1

15a

ORAL DECISION OF THE IMMIGRATION JUDGE
INTRODUCTION
The respondent was served with a Notice to Appear that was filed with the
Immigration Court on November 2, 2018, while the respondent was still in the custody of
the Department of Corrections. The respondent is now in ICE custody. The respondent
contested removability. The Court issued a written decision today explaining that the
respondent is removable as charged.
The next issue for the Court is the respondent's application for cancellation of
removal under Section 240A(a) of the Act.
STATEMENT OF THE FACTS
Respondent was born in Trinidad on November 30,1990. The respondent states
that he went to school in Trinidad. His application states that he had went to an all boys
primary school. He states that he encountered a couple times a dead body and on one
occasion it appears to be someone who may have been lynched, which made him
scared and confused.
The respondent immigrated to the United States on December 6, 2001. However,
it appears that he then went back to Trinidad to live there for a few more years. The
respondent wae-immigrated with his mother and sister based on a petition filed by his
mother's mother. The respondent states that he started living in the United States in
April of 2004 and did not return to Trinidad.
The respondent moved in with his grandmother, who lived in Stamford,
Connecticut. He states in his application he was able to assimilate very quickly and
lose his accent.
The respondent then started high school at Stamford High School. But he states
that when in the eleventh grade he started hanging out with the wrong crowd and

A047-369-752

2

16a '

February 22, 2019

l

\

»

k

[ started drinkingA-and using drugs^and smoking marijuana* and skipping class. He
dropped out of high school when he was in the twelfth grade and started working at Rite
Aid Pharmacy. But then he states that he returned back to Stamford High School. He
was then suspended because he was caught smoking and then went to Stamford
Academy, which is an alternative school. He graduated from there in 2009. He said he
did well there academically and was chosen to go to an IT program, but he did not
complete it.
The respondent has had many different types of Jobs, such aswhich involve
mainly-being a store associate or being a groomer's assistant or dog bather. However,
he did not hold these jobs for that long. He also worked as a seafood clerk in a couple
grocery stores. He worked at a demolition company for a few months. His latest job
was a dog bather and also worked part time at a restaurant warehouse as a porter. He
testified that his goal was to start a food truck because he is a very good cook and was
trying to get a culinary certificate. He states that* if he is released from custody, he
would work for a seafood company and do the food truck.
The respondent has a number of arrests. The first one was in March of 2010
where he was arrested for marijuana possession. He claims that his sister stole
marijuana from his dresser drawer and sold it.
Then the respondent was arrested again in April of 2010 for possession with
intent to sell. The respondent claims he had just a little bit of marijuana on him, but he
was charged with sale. He claims the police who investigated the case wasere not
consistent and there was an investigation. The police report is in Exhibit 13. It states
that the respondent was in an area well known as an area in which drugs are sold and
violent crime. The report observes the respondent was going from one car to another
. There was, in

A047-369-752

3

17a

February 22, 2019

addition to the marijuana found on the respondent, some $186 in currency and a
substantially more amount of marijuana found under the car seat. Respondent claims
that he was not involved in sale. The respondent pled guilty in September of 2010 to
possession and received a sentence of two years, execution suspended. He states that
the conditions of the probation were to attend drug classes.
Respondent had another arrest in January of 2011 for marijuana possession
afterwfaere he was pulled over. He said that the marijuana was not his. It was the
friend who was in the car with him. The respondent disposed of the case by paying a
$500 fine.
The respondent claims that he is a father of a son who was bom on September
25,2012, although he was not on the birth certificate and he claims the child's mother
did not want him on the birth certificate.
The record reflects that there was a protective order issued in December of 2012
afterwben the respondent was arrested for harassment. Then he was arrested twice in
April of 2013 for violating the protective order and harassment. On October 1, 2013, he
pled guilty to violating a protective order and sentenced to three years, execution
suspended, and a full protective order was issued. According to the plea colloquy, he
sent his ex-girlfriend, Maritza, a number of e-mails and messages, including messages
to Maritza's daughter, as well as phone calls. At the time the respondent’s attorney said
that the respondent has been unemployed for the last eight months and he had trouble
walking.
Then the respondent had another arrest for narcotics on March 27, 2015. That
arrest report is found in Exhibit 14. It reflects that the police received information from a
confidential informant that he was selling marijuana and powder cocaine from his home
at 278 Greenwich Avenue in Stamford. The police issued a warrant. The respondent

A047-369-752

4

18a

February 22,2019

was arrested. He told the police officers he had two bags of marijuana in his pocket
The police searched the shed and found 12 Ziploc bags containing marijuana and a
Ziploc bag containing 27 empty plastic Ziploc apple brand baggies.
The police also searched his bedroom where they found a hollowed out .357
magnum round and 94 clear plastic Ziploc apple brand baggies. The police also found
Xanax, which the respondent said he used once for sleep. Respondent claims that this
was all for his personal use and that he bought the marijuana, even though it was
scarce because of a bulk buy, because it was a good deal. He said he was unaware of
the 94 empty Ziploc baggies. The respondent pled guilty on October 2, 2015, to
possession with intent to sell and sentenced to six years, execution suspended after 25
months.

2016.
Then the respondent was released on probation or parole. He said that he had
to attendoo4o substance abuse classes. Then he went back to the son's mother, who
he said tried to get him sober, but then he relapsed. The respondent then said that he
foolishly resumed the relationship with his son’s mother.
He was arrested in November of 2017 because he tried to initiate contact while
he was in a restaurant. The respondent pled guilty in January of 2018 to violating a
protective order and sentenced to three years, execution suspended after 11 months.
He claims that he served the prison time from April of 2018 through January of 2019.
The respondent states he is disappointed with himself and felt played by his
ex-girlfriend. He said that he got high when he should not and he self-medicated. He
also admits using cocaine, a habit of $80 a week. Then he discusses using PCP. This
was discussed in the plea colloquy with the Judge. Respondent claims that the PCP r
mellowed him out, but it also appears that it affected his judgment and he admitted to

A047-369-752

5

19a

February 22,2019

r

the Judge when sentenced that he had a major problem with POP. But then the
respondent sort of dismissed that today and said he just stopped using it. He claims
j that he last-stopped usingcocaine in the summer of 2017. He claims he last used
marijuana right before he went to prison in around March of 2018. He said he was In
the process of cutting back his marijuana use. He claims that he is now sober. He went
to victim impact and substance abuse classes in prison. He said he had no disciplinary
tickets.
The respondent states that he used to see his son two to four times a month and
that the last contact was around September of 2017. He claims that* while there was no
child support order, he used to send support. The child’s mother has not come to Court
He said that he currently has no parental rights, blaming her for not allowing him to put
himself on the birth certificate. He claims he has filed something with the court to get
visitation, but it is unclear exactly what he did. He claims he Is now aware he could add
his name to the child's birth certificate. He states that his ex-girlfriend has three other
children.
He states he has a good relationship with his mother, who he describes as a
strong woman. He helped her financially when he was not In prison. He said he is
| concerned that* if he is deported, this would cause financial and emotional stress. He
said he is close to his sister. He also said he Is close to his grandmother. He said that
-

his grandmother is now very ill. He also has aunts and cousins. He states that he has
a half-sister and a grandfather who live in Trinidad, but he has had no contact with them
for years.

.

Respondent states he has few pleasant memories of Trinidad. He Is concerned
that deportees are not treated well. He states that^-white he has had no relationships
with men, he has had what he 6aid was hookups through a website. He said he has

A047-369-752

6

20a

February 22, 2019

had no relationship with men because he does not want it publicized. He claims that he
knows someone who was deported and that person was beaten and raped. He is
concerned he has a different accent and seen as a foreigner. He is concerned that
people would harm him because of his sexual orientation.
Respondent's mother testified. She states that the respondent has had a great
relationship with his son. She said that she has rarely seen respondent’s son recently
c

because his mother is moody and she is not comfortable around his son’s mother.

respondent's arrest for violating a

She states that her mother is now in a nursing home due to kidney issues and a
stroke. She currently works as a paraprofessional for the Stamford School District and
earns around $34,000 a year.
She also states that she has custody over her daughter’s child. She receives
some money from DCF. She said that her daughter had mental health issues. She
states that she has had some financial stress recently. She said that the respondent
helps to support her emotionally.
She is very concerned about the respondent’s situation in Trinidad. She states
that there is a lot of crime there and she is afraid to visit Trinidad and the last time she
was in Trinidad was five or six years ago.
She also was asked about the respondent’s drug use and all she knew is that the
respondent smoked marijuana. She claims that she told the respondent not to smoke
marijuana in the house? because-Sshe did not tike the smell. She states that one time
she saw him unconscious and was told at the hospital it had to do with other drugs.
She said she was surprised when the police raided her home in March 2015.

A047-369-752

7

21a

February 22, 2019

*•

The Court also reviewed other documents in the record, including the conviction
records and plea colloquies. The Court reviewed the State Department Report for
Trinidad. The most serious human rights problems were police mistreatment of
suspects, detainees, and prisoners. It also indicated that laws discriminate against
LGBTI persons. That section reflects that although the law criminalizes consensual
same sex sexual activity, the government did not generally enforce such legislation
except in conjunction with more serious offenses, such as rape. The law Identifying
classes of persons protected from discrimination does not prohibit discrimination based
on sexual orientation. The respondent provided the Crime and Safety Report, which
noted problems with violent crime in Trinidad. There was also an article in tab NN
regarding sexual minorities in Trinidad. It states that gay pride has been celebrated in
Trinidad for almost 20 years, but the celebrations are neither outdoors nor public and
are not publicly advertised. Gay bars and clubs exist in Trinidad and there have been
protests held by LGBT organizations. It states that about 64 percent of the population
tolerates or accepts homosexuals and about 75 percent of the population believes that
violence against sexual minorities is discrimination, but there were instances of
discrimination and occasional instances of violence.

reviewed. There are also letters from the high school and from former employers.
STATEMENT OF THE LAW
To qualify for cancellation of removal under Section 240A(a) of the Act, the
respondent must demonstrate that he has not been convicted of an aggravated felony,
has been a permanent resident for not less than five years, and has resided in the
United States continuously for seven years. Respondent must warrant a favorable
exercise of discretion. The Court will be guided by the BIA decisionrjg Matter of C-V-T-.

A047-369-752

8

22a

February 22, 2019

22 l&N Dec. 7 (BIA1998).
ANALYSIS AND FINDINGS
The Court must balance the respondent's equities against the adverse factors.
Respondent has the following equities. He has resided in the United States since
around 2004, a period of about 15 years. The respondent came to the United States
when he was about 13 years old, although he had visited the United States previously.
Respondent claims to have a history of employment and there are some letters from
former employers. The respondent has a U.S. citizen mother and sister. He states that
he is the father of a child, although he is not listed on the birth certificate. Unfortunately,
the mother of the child did not come to Court.
The other issue is hardship to the respondent if he goes back to Trinidad. There
is no doubt he would suffer hardship. He says he would be treated as a foreigner there?
and-He-cavs he has no place to go or employment. He says he has a half-sister and a
grandfather who live there, but he has not been close to them. He also states he would
be possibly harmed as a deportee and because he says that he is bisexual. The Court
did not find any evidence of harm to deportees, although the respondent states that
someone he knew who was deported there was beaten. The respondent may certainly
face discrimination based on his claimed sexual orientation.
The other issue is hardship to his family. The respondent currently has a no
contact order with his son and has not seen him for quite a period of time. We do not
know much about hardship to the child, although the Court would presume there would
be some emotional hardship. There would be some hardship to his mother and
grandmother. His mother states that he has helped her out financially, although it
appears from at least one plea colloquy that the respondent has had substantial periods
of unemployment and incarceration during which he was unable to provide financial

A047-369-752

9

23a

February 22,2019

support. But there would clearly be emotional support to the mother. Certainly, things
have been difficult for his mother once she has taken custody over her daughter's child.
Then we have the adverse factors. Respondent has a substantial and
unfortunately recent criminal history. In 2010 and 2011 he was arrested three times for
marijuana possession.
Then he had the most serious arrest in 2015 for possession with intent to sell, in
which he pled guilty and sentenced to six years, execution suspended after 25 months.
Respondent claims that all the marijuana that was in the house was purely for personal
use. However, the police report indicates that they had received evidence from a
confidential informant that he was selling marijuana and cocaine from his home. The
police found many bags that are apparently used for marijuana sate and distribution.
Respondent did plead guilty and received a very substantial sentence of six years,
execution suspended after 25 months. Respondent was in prison from January of 2016
through November of 2016 and he was released.

violating protective orders. The first protective order was issued in December of 2012.
He was arrested twice in April of 2013 for violating that protective order and pled guilty
in October of 2013 to violating a protective order and sentenced to three years,
execution suspended with another protective order issued. That protective order
apparently prevented him also from having contact with his son. The Court asked the

unclear.
know. He had another arrest for violating a protective order and risk of injury to a minor.
He pled guilty In January of 2018 to the violating protective order and sentenced to
three years, execution suspended after 11 months. He says he was in prison from April

A047-369-752

10
24a

February 22, 2019

of 2018 through January of 2019.
Respondent states he has now figured out that his problems were caused by his
ex-girlfriend and his anxiety and depression, which he was trying to medicate. He
claims that the relationship with the son's mother was toxic. He states that he has gone
to various classes in the prison, including one for substance abuse. He claims that he
had started to curtail marijuana use, had atready stopped using cocaine and PCP. He
claims that if he is released he is going to open6tart a food truck.
The Court must balance the respondent’s equities against the adverse factors.
While the Court does find that he has some fairly substantial equities and hardships to
him and his family, if he is deported to Trinidad, he also has very serious adverse factors.
The respondent has very recent arrests and prison time for violating a protective order
and drug trafficking. What is especially disturbing was his drug trafficking conviction in
which he got a six-year sentence, which is a very substantial sentence. The respondent
denies he was involved with drug trafficking, but he pled guilty to that offense and
certamly-the police report reflects that he was involved in drug trafficking.
The other issue is rehabilitation. The respondent had numerous arrests

a protective order and continued to reoffend. The Court unfortunately is not convinced
that he has demonstrated rehabilitation.
The Court has the difficult task of balancing the respondent's equities against the
adverse factors. The Court finds that he has not demonstrated that the equities
outweigh his adverse factors and the Court’s finding on rehabilitation. The Court would,
therefore, deny his application for relief in the exercise of discretion.
ORDERS
IT IS HEREBY ORDERED that the respondent’s application for cancellation of

A047-369-752

11

25a

February 22, 2019

removal is denied.
IT IS FURTHER ORDERED that the respondent be removed to Trinidad and

Tobago.

Please see the next page for electronic
signature
MICHAEL W. STRAUS
Immigration Judge

A047-369-752

12

26a

February 22.2019

f'

Us//

Immigration Judge MICHAEL W. STRAUS
i:05.t|doj federation services rp-sts|michael.straus@usdoj.gov
on April 4, 2019 at 9:21 PM GMT

A047-369-752

13

27a

February 22,2019

Exhibit E

UNITED STATES DEPARTMENT OF JUSTICE
UNITED STATES DEPARTMENT OF JUSTICE
EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
IMMIGRATION COURT
HARTFORD, CONNECTICUT
In the Matter of

)
)

PAUL ANDRE JUDE MARIANO GARCIA

)

In Removal Proceedings

Respondent

)
)

A047-369-752

CHARGES:

INA § 237(a)(2)(E)(ii), as amended: in that you are an alien who at any time
after entry has been enjoined under, a protection order and has been
determined to have engaged in conduct in violation of that order that
involves protection against credible threats of violence, repeated
harassment, or bodily injury to the person or persons for whom the
protection order was issued.

ON BEHALF OF THE RESPONDENT
Dalia Fuleihan, Esq.
New Haven Legal Assistance Association
205 Orange Street
New Haven, CT06510

ON BEHALF OF THE GOVERNMENT
John Marley, Senior Attorney
Department of Homeland Security
4550 Main St., Room 483
Hartford, CT 06103

ORDER OF THE IMMIGRATION JUDGE
I.

Procedural and Factual History

The Department of Homeland Security (“DHS”) filed a Notice to Appear (“NTA”) with
the Court on November 2, 2018. On December 26, 2018, DHS filed Additional Charges of
Inadmissibility/Deportability on Form 1-261. Based on these two documents DHS alleges that
Paul Andre Jude Mariano Garcia (“Respondent1*) is subject to removal based on these factual
allegations:
1) Respondent is not a citizen or national of the United States;
2) Respondent is a native of Trinidad and Tobago and a citizen of Trinidad and Tobago;
3) Respondent was admitted to the United States at Miami, FL on or about December 6,
2001 as an F12; child of an alien classified as an Fll orF16;
4) On December 21,2012, Respondent was enjoined under a protection order issued by the
Stamford Superior Court in Stamford, CT;
5) On October 1,2013, that Court determined that Respondent had engaged in conduct that
violated a portion of that order that involved protection against credible threats ofviolence,
repeated harassment, or bodily injury to that person or persons for whom the protection
order was issued;
1

28a

000125

6) On October 1, 2013, Respondent was enjoined under a protection order issued by the
Stamford Superior Court in Stamford, CT;
7) On January 18, 2018, that Court determined that you had engaged in conduct that
violated a portion of that order that involved protection against credible threats of violence,
repeated harassment, or bodily injury to that person or persons for whom the protection
order was issued.
DHS charges that Respondent is removable pursuant to INA § 237(a)(2)(E)(ii) as having
engaged in conduct in violation of a protective order that involves protection against credible
threats of violence, repeated harassment, or bodily injury to the person or persons for whom the
protection order was issued.
In written pleadings filed on January 9,2019, Respondent admitted allegations 1,2,4, and
6 and denied allegations 3,5, and 7 (as they appear in the form 1-261 - Exh. 7). Respondent also
denied the charge of removability. On January 16,2019, DHS filed a brief on removability. On
January 25,2019, Respondent filed a reply brief. The Court has considered the arguments raised
by the parties and will issue and order on removability.
II.

Legal Standards and Analysis

A.

Removability and Burden of Proof

DHS bears the burden of establishing by clear and convincing evidence that Respondent
is removable. INA § 240(c)(3); 8 C.F.R. § 1240.8(a).
B.

INA § 237(a)(2)(E)(ii): Violators of protection orders

DHS charged Respondent as removable under INA § 237(a)(2)(E)(ii) as an “alien who at
any time after admission has been enjoined under a protection order and has been determined to
have engaged in conduct in violation of that order that involves protection against credible threats
ofviolence, repeated harassment, or bodily injury to the person or persons for whom the protection
order was issued.” Respondent admits that he was enjoined under two separate protective orders.
However, Respondent does not concede that he engaged in conduct that violated the portions of
the protective order that involved protection against credible threats of violence, repeated
harassment, or bodily injury to the person for whom the protection order was issued (allegations 5
and 7). The government argues that allegations 5, and 7 are established through evidence in the
record including a plea transcript (Exh. 3), record of conviction (Exh. 5), and an order of protection
(Exh. 6). However, Respondent argues that the categorical approach applies to INA §
237(a)(2)(E)(ii), thus preventing the Court from reviewing the evidence the government relies
upon, and that the statutes under which Respondent was convicted do not match the INA. The
Court disagrees with Respondent’s view.
In Matter of Obshatko, 27 I&N Dec. 173 (BIA 2017), the BIA held that for purposes of
removability under section 237(a)(2)(E)(ii) of the Act, an Immigration Judge should consider all
“probative and reliable evidence regarding what a State court has determined about the alien's
violation.” Id. at 177. The BIA explicitly rejected the categorical approach when determining
whether a violation of a protection order renders an alien removable under section 237(a)(2)(E)(ii)
2

29a

000126

of the Act. Id. at 175. Respondent argues that the BIA’s decision is incorrect and that we should
apply the categorical approach to determine whether respondent's convictions for violating a
protection order matched the offense described in section 237(a)(2)(E)(ii) of the Act The
Respondent points out that the United States Court of Appeals for the Ninth Circuit has applied
the categorical approach to section 237(a)(2)(E)(ii) of the Act and argues that we should ignore
the BIA decision and apply the categorical approach as the Ninth Circuit has. See Szalai v. Holder,
572 F.3d 975, 979-80 (9th Cir. 2009); Alanis-Alvarado v. Holder, 558 F.3d 833, 836 (9th Cir.
2008). The Court notes that Alanis-Alvarado v. Holder preceded the Supreme Court's publication
of Nijhawan v. Holder, 557 U.S. 29 (2009), in which the Supreme Court first approved a
determination of removability that was not limited to the categorical approach in appropriate
circumstances (including a determination of a criminal removability charge without the
requirement of an underlying conviction). Furthermore, while Szalai v. Holder post-dated
Nijhawan v. Holder, the Ninth Circuit noted that it was “bound” by its pre-Nijhawan decision in
Alanis-Alvarado v. Holder. See Szalai v. Holder, 572 F.3d at 979-80. Thus it is not clear that Ninth
Circuit precedent is in conflict with Matter ofObshatko. In any event this Court is bound by the
BIA’s precedent decision in Matter ofObshatko and must apply it to this case.
In determining whether a conviction for violation of a protection order renders an alien
removable under section 237(a)(2)(E)(ii) of the Act, the Court “should consider the probative and
reliable evidence regarding what a State court has determined about the alien's violation ” Matter
ofObshatko, 27 I&N Dec. at 176. The Court finds that the evidence of record demonstrates that
that on October 1,2013, the Connecticut Superior Court found that Respondent engaged in conduct
that violated a portion of a protective order that involved protection against credible threats of
violence, repeated harassment, or bodily injury to that person for whom the protection order was
issued. The plea transcript from that case indicates that the state's attorney laid out the factual
basis for that conviction. In doing so the state's attorney stated that Respondent violated the
protective order by emailing the protected person ten times and calling the protected person 25
times in a short time frame. The judge relied on this factual basis in accepting Respondent’s guilty
plea. Exh. 3. Based on this evidence, the Court finds that the judge in the Connecticut Superior
Court found that Respondent engaged in conduct that violated his order of protection by engaging
in repeated harassment. Based on this finding the Court concludes that DHS has demonstrated
through clear and convincing evidence that Respondent is removable as they have supported
allegation 5 as it appears in the Form 1-261. (Exh. 7).
The Court is not satisfied with the evidence provided by DHS to support allegation 7 as it
appears in the Form 1-261. (Exh. 7). This allegation relates to Respondent violating an order of
protection entered against him on October 1, 2013. (Exh. 6). However, it is not clear from the
record of conviction which portion of the order of protection Respondent violated. Although the
government contends that if Respondent violated any portion of the order of protection he would
be removable under section 237(a)(2)(E)(ii) of the Act the Court is not convinced as the conduct
prohibited in the order of protection appears to be broader than the conduct described in section
237(a)(2)(E)(ii) of the Act and it is not clear what factual basis the court used to determine that
Respondent had violated the protective order. See Exhs. 5 and 6.

3

30a

000127

J

*

4

?

f

i

;
*

i

I

*

♦

i

4

•£'v

III.

Conclusion

Based on the above, the Court finds that on December 1,2012, Respondent was enjoined
under a protection order issued by the Samford Superior Court in Stamford, Connecticut. The
Court further finds that on October 1,2013, the Stamford Superior Court in Stamford, Connecticut
determined that Respondent engaged in conduct that violated the portion ofthat order that involved
protection against repeated harassment. Therefore, the Court concludes that Respondent is
removable as charged pursuant to INA § 237(a)(2)(E)(ii).
Order
IT IS HEREBY ORDERED that the removability charge pursuant^
SUSTAINED.
kit
I/

Date

§/}7(a)(2)(E)(ii) is

liftcnael W. Straus
Immigration Judge

4

31a

000128

w;

*

<

/

*
%

vi

,*

A

**

y,

Exhibit F

1
2
3
4

JUDGE TO MS. FULEIHAN
Thank you.
JUDGE FOR THE RECORD
I’ll be back five minutes.

5

[OFF THE RECORD]

6

[ON THE RECORD]

7

JUDGE RENDERS ORAL DECISION

8

9
10
11
12
13
• 14
15

JUDGE TO MS. FULEIHAN
Counsel, you’ve heard my decision. Do you wish to waive or reserve appeal?
MS. FULEIHAN TO JUDGE
Reserve appeal, Your Honor.
JUDGE TO MS. FULEIHAN
Okay.
JUDGE TO MR. GARCIA
Sir, I've denied your application for cancellation of removal and ordered your

16

removal to, to Trinidad. You have the right to appeal my decision to the Board of

17

Immigration Appeals. In order for your appeal to be considered, the appeal forms must

18

be received by close of business, March 25th. If they are not received by March 25th,

19

my decision will be final. So if you file the appeal, you have to allow plenty of time for

20

mailing. If you are deported, you can't return to this country with - for - without the

21

special permission of the Immigration authorities. If you return without that permission,

22

you can be prosecuted.

23

JUDGE TO MS. FULEIHAN AND TO MS. GATES-GRACESON

24
25

Anything further from either party?
MS. GATES-GRACESON TO JUDGE

A047-369-752

221
32a

February 22, 2019

000381

1

Just briefly, Your Honor, you had mentioned the written decision you provided to

2

the parties -

3

JUDGE TO MS. GATES-GRACESON

4
5
6
7
8
g
10

Yes.
MS. GATES-GRACESON TO JUDGE
- earlier addressed the motion to terminate JUDGE TO MS. GATES-GRACESON
Yes.
MS. GATES-GRACESON TO JUDGE
- on the procedural grounds but I didn’t see that referenced in the motion. The

11

respondent’s motion was based on Pereira.

12

JUDGE TO MS. GATES-GRACESON

13

Well, they can raise the appeal on Pereira -

14

MS. GATES-GRACESON TO JUDGE

15

Okay. Just wanted to -

16

JUDGE TO MS. GATES-GRACESON

17
18

19

-1 think Matter of Bermudez-Cota has resolved those issues.
MS. GATES-GRACESON TO JUDGE
I - that was our position, Your Honor, and we just wanted to make sure that that

20

was the Court’s position.

21

JUDGE TO MS. GATES-GRACESON

22
23
24

All right.
JUDGE FOR THE RECORD
Matter is concluded.

25

HEARING CLOSED

A047-369-752

222

33a

February 22,2019

000382

Exhibit G
8 U.S. Code § 1229 ■ Initiation of removal proceedings
(a) Notice to appear
(l) In general
In removal proceedings under section 1229a of this title, written notice (in this
section referred to as a “notice to appear”) shall be given in person to the alien (or, if
personal service is not practicable, through service by mail to the alien or to the
alien’s counsel of record, if any) specifying the following(A) The nature of the proceedings against the alien.
(B) The legal authority under which the proceedings are conducted.
(C) The acts or conduct alleged to be in violation of law.
(D) The charges against the alien and the statutory provisions alleged to have been
violated.
(E) The alien may be represented by counsel and the alien will be provided (i) a
period of time to secure counsel under subsection (b)(l) and (ii) a current list of
counsel prepared under subsection (b)(2).
(F)
(i) The requirement that the alien must immediately provide (or have provided) the
Attorney General with a written record of an address and telephone number (if any)
at which the alien may be contacted respecting proceedings under section 1229a of
this title.
(ii) The requirement that the alien must provide the Attorney General immediately
with a written record of any change of the alien’s address or telephone number.
(iii) The consequences under section 1229a(b)(5) of this title of failure to provide
address and telephone information pursuant to this subparagraph.
(G)
(1) The time and place at which the proceedings will be held.
(ii) The consequences under section 1229a(b)(5) of this title of the failure, except
under exceptional circumstances, to appear at such proceedings.
(2) Notice of change in time or place of proceedings
(A) In general

34a

In removal proceedings under section 1229a of this title, in the case of any change
or postponement in the time and place of such proceedings, subject to subparagraph
(B) a written notice shall be given in person to the alien (or, if personal service is
not practicable, through service by mail to the alien or to the alien’s counsel of
record, if any) specifying—
(i) the new time or place of the proceedings, and
(ii) the consequences under section 1229a(b)(5) of this title of failing, except under
exceptional circumstances, to attend such proceedings.
(B) Exception
In the case of an alien not in detention, a written notice shall not be required under
this paragraph if the alien has failed to provide the address required under
paragraph (l)(F).

(3) Central address files
The Attorney General shall create a system to record and preserve on a timely basis
notices of addresses and telephone numbers (and changes) provided under
paragraph (l)(F).
(b) Securing of counsel
(1) In general
In order that an alien be permitted the opportunity to secure counsel before the first
hearing date in proceedings under section 1229a of this title, the hearing date shall
not be scheduled earlier than 10 days after the service of the notice to appear,
unless the alien requests in writing an earlier hearing date.
(2) Current lists of counsel
The Attorney General shall provide for lists (updated not less often than quarterly)
of persons who have indicated their availability to represent pro bono aliens in
proceedings under section 1229a of this title. Such lists shall be provided under
subsection (a)(1)(E) and otherwise made generally available.
(3) Rule of construction
Nothing in this subsection may be construed to prevent the Attorney General from
proceeding against an alien pursuant to section 1229a of this title if the time period
described in paragraph (l) has elapsed and the alien has failed to secure counsel.
(c) Service by mail

35a

Service by mail under this section shall be sufficient if there is proof of attempted
delivery to the last address provided by the alien in accordance with subsection
(a)(1)(F).
(d) Prompt initiation of removal
(1) In the case of an alien who is convicted of an offense which makes the alien
deportable, the Attorney General shall begin any removal proceeding as
expeditiously as possible after the date of the conviction.
(2) Nothing in this subsection shall be construed to create any substantive or
procedural right or benefit that is legally enforceable by any party against the
United States or its agencies or officers or any other person.
(e) Certification of compliance with restrictions on disclosure
(1) In general
In cases where an enforcement action leading to a removal proceeding was taken
against an alien at any of the locations specified in paragraph (2), the Notice to
Appear shall include a statement that the provisions of section 1367 of this title
have been complied with.
(2) Locations
The locations specified in this paragraph are as follows(A) At a domestic violence shelter, a rape crisis center, supervised visitation center,
family justice center, a victim services, or victim services provider, or a communitybased organization.
(B) At a courthouse (or in connection with that appearance of the alien at a
courthouse) if the alien is appearing in connection with a protection order case,
child custody case, or other civil or criminal case relating to domestic violence,
sexual assault, trafficking, or stalking in which the alien has been battered or
subject to extreme cruelty or if the alien is described in subparagraph (T) or (U) of
section 110l(a)(l5) of this title.

8 CFR § 1003.13 - Definitions.
As used in this subpart'
Administrative control means custodial responsibility for the Record of Proceeding
as specified in § 1003.11.

36a

Charging document means the written instrument which initiates a proceeding
before an Immigration Judge. For proceedings initiated prior to April 1, 1997, these
documents include an Order to Show Cause, a Notice to Applicant for Admission
Detained for Hearing before Immigration Judge, and a Notice of Intention to .
Rescind and Request for Hearing by Alien. For proceedings initiated after April 1,
1997, these documents include a Notice to Appear, a Notice of Referral to
Immigration Judge, and a Notice of Intention to Rescind and Request for Hearing
by Alien.
Filing means the actual receipt of a document by the appropriate Immigration
Court.
Service means physically presenting or mailing a document to the appropriate party
or parties; except that an Order to Show Cause or Notice of Deportation Hearing
shall be served in person to the alien, or by certified mail to the alien or the alien's
attorney and a Notice to Appear or Notice of Removal Hearing shall be served to the
alien in person, or if personal service is not practicable, shall be served by regular
mail to the alien or the alien's attorney of record.

8 CFR § 1003.14 ■ Jurisdiction and commencement of proceedings.
(a) Jurisdiction vests, and proceedings before an Immigration Judge commence,
when a charging document is filed with the Immigration Court by the Service. The
charging document must include a certificate showing service on the opposing party
pursuant to § 1003.32 which indicates the Immigration Court in which the charging
document is filed. However, no charging document is required to be filed with the
Immigration Court to commence bond proceedings pursuant to §§ 1003.19,
1236.1(d) and 1240.2(b) of this chapter.
(b) When an Immigration Judge has jurisdiction over an underlying proceeding, sole
jurisdiction over applications for asylum shall lie with the Immigration Judge.
(c) Immigration Judges have jurisdiction to administer the oath of allegiance in
administrative naturalization ceremonies conducted by the Service in accordance
with § 1337.2(b) of this chapter.
(d) The jurisdiction of, and procedures before, immigration judges in exclusion,
deportation and removal, rescission, asylum-only, and any other proceedings shall
remain in effect as it was in effect on February 28, 2003, until the regulations in
this chapter are further modified by the Attorney General. Where a decision of an
officer of the Immigration and Naturalization Service was, before March 1, 2003,
appealable to the Board or an immigration judge, or an application denied could be

37a

renewed in proceedings before an immigration judge, the same authority and
procedures shall be followed until further modified by the Attorney General.
8 CFR § 1003.15 • Contents of the order to show cause and notice to appear and
notification of change of address.
(a) In the Order to Show Cause, the Service shall provide the following
administrative information to the Executive Office for Immigration Review.
Omission of any of these items shall not provide the alien with any substantive or
procedural rights(1) The alien's names and any known aliases;
(2) The alien's address;
(3) The alien's registration number, with any lead alien registration number with
which the alien is associated;
(4) The alien's alleged nationality and citizenship;
(5) The language that the alien understands;
(b) The Order to Show Cause and Notice to Appear must also include the following
information(1) The nature of the proceedings against the alien;
(2) The legal authority under which the proceedings are conducted;
(3) The acts or conduct alleged to be in violation of law;
(4) The charges against the alien and the statutory provisions alleged to have been
violated;
(5) Notice that the alien may be represented, at no cost to the government, by
counsel or other representative authorized to appear pursuant to 8 CFR 1292.1;
(6) The address of the Immigration Court where the Service will file the Order to
Show Cause and Notice to Appear; and
(7) A statement that the alien must advise the Immigration Court having
administrative control over the Record of Proceeding of his or her current address
and telephone number and a statement that failure to provide such information
may result in an in absentia hearing in accordance with § 1003.26.
(c) Contents of the Notice to Appear for removal proceedings. In the Notice to
Appear for removal proceedings, the Service shall provide the following
administrative information to the Immigration Court. Failure to provide any of

38a

these items shall not be construed as affording the alien any substantive or
procedural rights.
(1) The alien's names and any known aliases;
(2) The alien's address;
(3) The alien's registration number, with any lead alien registration number with
which the alien is associated;
(4) The alien's alleged nationality and citizenship; and
(5) The language that the alien understands.
(d) Address and telephone number.
(1) If the alien's address is not provided on the Order to Show Cause or Notice to
Appear, or if the address on the Order to Show Cause or Notice to Appear is
incorrect, the alien must provide to the Immigration Court where the charging
document has been filed, within five days of service of that document, a written
notice of an address and telephone number at which the alien can be contacted. The
alien may satisfy this requirement by completing and filing Form EOIR-33.
(2) Within five days of any change of address, the alien must provide written notice
of the change of address on Form EOIR*33 to the Immigration Court where the
charging document has been filed, or if venue has been changed, to the Immigration
Court to which venue has been changed.
8 CFR § 1003.18 ■ Scheduling of cases.
(a) The Immigration Court shall be responsible for scheduling cases and providing
notice to the government and the alien of the time, place, and date of hearings.
(b) In removal proceedings pursuant to section 240 of the Act, the Service shall
provide in the Notice to Appear, the time, place and date of the initial removal
hearing, where practicable. If that information is not contained in the Notice to
Appear, the Immigration Court shall be responsible for scheduling the initial
removal hearing and providing notice to the government and the alien of the time,
place, and date of hearing. In the case of any change or postponement in the time
and place of such proceeding, the Immigration Court shall provide written notice to
the alien specifying the new time and place of the proceeding and the consequences
under section 240(b)(5) of the Act of failing, except under exceptional circumstances
as defined in section 240(e)(1) of the Act, to attend such proceeding. No such notice
shall be required for an alien not in detention if the alien has failed to provide the
address required in section 239(a)(1)(F) of the Act.

39a

'

. To:

Page 2 of 4

2018*10-2412:15:33 EST

'"‘X

*. •*

12039616972 From: Branch 1 900 bedtord St Stamford

Exhibit H
■\,

Notice to Appear

TJ.S. Department ofHomeUnd Security
Tn removal proceedings under section 240 of the Immigration and Nationality Acti
SubjMt rp;

non: U/30/X990..

..

’.

$
Fite No. 047 369 7S2
pvant No: HAB18050Q.M53

In tire Matter of)
Respondent:

tarn. Juoaa

jtob harjamo qabcU

jjjjirently residing at:

278 Cx*umlch Av* Stanford, COtOJXCtXCCT, 06902

(Number* street, city and ZIPcode).

(Area codp and pbone number)

O l. You are an arriving alien.
□ 2. You arte an alien projeat ia the United States-whohas not been admitted or paroled.Ixl 3» You have been admitted to the United States, but are removable for tfce reasons stated below.

>•

The Department of Homeland Security alleges that you;
See Continuation. Pago Made a Part Hereof-

H,

»«•

., .

On the basis of the foregoing, it (a charged that you are subject to. removal from the United Statespursuant to die following
. provision^) of law;
.. ••• .*
• •
*
Section 237(a) (2) (£) (Ji.) of the Immigration and Nationality Act, as amended, ia that you
are an alien who at any time after entry has been enjoined under a protaction order, and
has been determined to have engaged in* conduct ia violation of that order that involves
protection against credible threats of violence, repeated harassment* or bodily injury to
the person or persons for whom the protection order vaa issued.

5*
i~l This notice ia being issued after an asylum officer has foVmd that the respondent has demonstrated a credible fear of persecution
or torture.
□ Section 235(b)(1) order was vacated pursuant to: OsCFK 20830(f)(2) 08CFR 235.3(b)(5)(iv)
YOU AKBOROER£U to appear before an immigration judge Ofthe United States; Department of Justice at
A* A. Riblcoff Federal Building 450 Main St R» 628 Hartford CT 06103. ZOIR Hartford, Ct

on Vo b> wt.

(Coc^UtajU/i^o/'lmmignalan Court, tnc£id!pj Boon Number, jfeity)
^_at' »<» b# ««t.______ to ahow wbj^yoa«yould notbcremovcd.ftwn thc.Unite4 States based cm.thp
(Tint} **-.-**

chuge(«) set forth sbo.ve.

R 362 MCI
(SlgwaiHaii&Tltiettfluutn&fiicaj

Date: August 2, 2018'

fanfert. CT
(QiymdState)

See reverie forimportant Information

40a

Fotml.842QSMv.0a/0I/07)

.,

To:

Pap© 3 of 4'

Node* eeJEUtp©«Ae«t
Wttoiap AoystetcvcBtjwiiulomqrbtvMiAC^Bit yMlaraomlproecedlQct.
Aflefl R*gU*r*tf<in: Tin* copy ortho Notice to Appear»«rYedtsx» you Ij evidence cfftrar iliecTejirtrti^ white you are imderrenjotal
proeedfag* You tt© required to cany k whb yoq «*D tiitv*
s .(7

frtiQB>'Uyqg4qdio<M<vypqovybeycpct<ffl^dtnfliipcocccdipt.itito.qtpttasfotto.QqvcnBg^fcy^atooeyoro&refobvidari "*■ ^
aathcriiedwd qualified CoKprweeJ poreoMbeforetbc Kccutivo Officetat[agalgatjnn Reticw.pumanl to I CF8.jj&. 0&j«yoa’i©reqiAirt,no' ‘
* hearing wSI be achrdtiladentireton tea dayi ftoca tfx <Ut* of 6bnotice, to allow yoe tuffidect trim to newre ocunwi. Ah*t<?f<f»I|fted*ttcn>^r#
■ndogpftigrioftawhAwybaavaflaMa-magreaaAygg*iat>oo&t.afllb*yi>vt4*d*riiihtfdn»doA
re

'

*re>

CoBdaci ojthe Attrlaj: Ajttetftnocfyocrhrerfnj.yoQthflaldbriflt.’w’ithyoqaoyriBdavtoovodtcrdoccqsreta. whkhyouflc*iretoh*y»
ootmdaedtqcoqwqtfcwvtihjnwrttM. I(yQft.vllbtob!ivefii0te*tiiBC9yofai>ywttDPue*oaQddeA4yoQ*bQu!difcrehgt(Dfa*ye«ueh*teatata
pretest it ibe hearing.
Al yocr hearing yoawifi be jfv» fce o^oitaoi^r to adadt a deny «5y of *0 of (bo aUeptliwla &e Notice* Appear tad that ycd tr* burinia&ta
or iwnnvalleonthe charge*contained tatheNotice to Appear, You wfiJ have tn opportunity ta present evtdcjjee ©a yoyronrabeWt tuexanriwany
avtden©* presented by &* Qowuaeav* tbjoc% oo peeper legal ground* to toe reeriptefevidence sa&tocfoci eusdueny Mtaatto ptmed by...........
the Oovarnmeat. A! ibe concfotbo ofyous hearing, you have aright to appeal u advene deddon by the taralgnttcQjQdge. "
You wS be idybed by (be {anupttioo jodg* be£m «Wk yev «fP0ir «^y 7«U«f fiom msoval ftr«luch yoo may tppor eUc<blQ toebdiof ibe
privilege of departure vshfetarily. You will be given* roacotublo opportunity to milre toy etch application to the lmmipllioojudgo.
Fblhu* t* ffipev; Yo» «ze n^ilted lo provide tbe'DHS, b ^ritlnt, with yoor ftX tM&faif adfan md telepbpOa.0waber. Yob wait oodfydso
Itnmig*>ka Court immediately by tumfFcamE01R»33 whoseveryc*>ri«ag».yo<tr*ddn»tott^epbfiatfpgnb«r daring tbaooura cl finigrecccdicfc. "'w
You aril! teprovldcd whh a oepy of fell fem. Nodrea of bearing red ba nulled to dusaddnaa. tfyea do oocaufanJt. Form E0DW3 anddomt
othowuo provide tt addreaa atwidfb yw rosy benaebed duringprooeddingi, tin fheGovensmt ihsU aofcbe required ta provide yon with aqhttq *
V,

InuolgntKaCOvrV tre2&aya]o(daroisybeni»dobyib»bmslpvdoDjodte taymrobKooe, bod yoa.m»y bturerttd tad detatned by tboDHS.
Mtoditory Daly to S tmeder fbr Rtsovol; Ifyou boooiM eut^ectto * fintl oedst of raDoyt!, jroo mot cuntod« ftr f«BMvai to mo o/lbe
officea listed ta t CPR 241.16(a). Specific addrecMdBloestiaQjftH’iamKufexetabeotrtikJcdtomyourlocalDHSbSteoerOYcrthfiintmietat
http/toww.fo.«*rt/ibogt/dre/coniactttni. YoaioajtwiraxfawitfciaSOitsyi from the data ih*cinia'b«eoai«i4miairtj»ilvtIy final, wriresyoo
obtain an crcer&um aFedtttl eewtreaurdpatfoacetirti'CftthfrBoMd Imn4?*dgaAppc«Uifeying.ex«adfcroQf4h4reao*«Lasdat~lanri9»Bea
reguUticni at 3 CFR. 24!,] define when the msovtl ordcrbeconxe odmlnirtntivelyfiiul Ifyct «ro panted vnltmtogy departure sodfafitodepart
tb© Veiled S tale* a» required, foil to peat i bond 2& waustionwHb voluotwy depaxuw, or DU to coapty with any other coodidea oc tern ift
coaoecttoBWttbvobxafwydepppuo.ywmatowTadafjetmoyiJooftOAttttboateaidayttoqiftg'. Ifyw douot rmtodw for mnovil u
required, yo« wfllbe baoUtfble for att.f«WA> of diaactko»yTatief far uloaru you rtasaiBtstboUoilBd States *ad for koyetts after dfpartn*or
etatm. ttgbby^Md wined oiivoi fiwT^ilj yaiwi Ifjw dPiiutiancuder<bcmBOTa!Mwm4Pw^yoqatty«Mobocuomd)ypreie<tfBdtiader
s<cdoa243 ^tbeAct.
IbqaotbrFnoptBtttbi
To cxpedHot-detomiactioo iony msa treqm* tairamediitobunB^ IwaivetnyTightto a Kkby period prior to fearing befarcao bmnfgratioQ
iodge.
Seftre:

•*

*•«
Datef
(&£namrt qtti D& qftmMputo* Qfflew)
C*rtUk*ta6fS«w1c«

Thii Notteo To Appear wattervodootboreapondcct by cnoea^A ilV^
23$(iX})(F)0fti>«Ast
' □ byreguiaiBiall
(X| fopenoa ♦ •• • . C] by certified tni^reftnaed-wodptroqueited
n Attached & a credible &lrworicxbee<.
IS Attached li a Urt of on>aiatieoiadattacxyMrid^|wtd> fro* tegdagtricc^
rHo atbaaraa provided onl codec fatto
\*i\
'laagugaof^aUtM
ofblsprheebearifit.aadoftl»
concoqueocof of (kiture ta appear ai provided us (ecdoc 240(b}C7)oftfaoAet
m4TUi«< o(0«rJ

t8tfH<iwr«f aApooeMHlt Nmcaiy Ocmd)

Voca WO Ptf* S {Row. tiVOWT)

41a

t

To:

2018-10*2412:15:33 EST
..*

Pago 4 of 4

^.Department of Homeland Security

^

Alien'? Name
GARCIA, PAUL ANDRE JUDE MARIANO

Continuation

1

for Form, X-862

File Number
Date
047 359 752
06/02/2018
Event Ko< UAR18050001SS

TBS 8EOT2CS MXCCC9 TBWP TOUr
1.*Yo»~aro-«ot**- oltlaan- or- national .of „tha_flni.tad,Stator;..,____
2.You an * native of TB22HDAD AHD TOa^GO Ond * cltiran o.f.TWtflUhD XKDTCBAGOj ......
v

•

•

»

t

3. You wars admlttad to tha Onltad Stataa at Mlaai, R» on or about Dacoabar* 8, 2001 aa an
712,' child of an alien claaalfied aa aa 711 ox 716.
i. On October 1, 2013, you vara anjoined undar a protection order loaned by tbo Stanford.
Superior Court in Stanford, Connecticut.
3. On April 10f 2016, that C6ut dataminod that you bad engaged in conduct that violated a
portion of that order that involved pro taction agalnat Credible threata of violanca,
repeated haraaratast, or bodily injury to the parson or parsons for whoa the protsetloh order
was issuad.

i

>

*N
»

Signature*

**

Title
ar

r

3

of.

— Pagea

Form 14) 1 Cbotunutloo Tags (Rev. C8/01A57)

:

42a

I

Exhibit I

NOTICE OF HEARING IN REMOVAL PROCEEDINGS
IMMIGRATION COURT
450 MAIN ST., ROOM 628
HARTFORD, CT 06103
RE; GARCIA, PAUL ANDRE JUDE-MARIANO
FILE: 047-369-752
: DATE: Nov 5, 2018
412820
TO:
GARCIA, PAUL ANDRE JUDE MARIANO
'RADGOWSKI BUILDING
• 982 NORWICH-NEW LONDON TPKE'
UNCASVILLE, CT 06382
Please take notice that the above captioned case has been scheduled for a VIDEO hearing before the Immigration Judge on Nov 8, 2018 at 08:30 A.M..
. The alien will be present via tele/video. All other parties and.witnesses
should report to:
• .
450 MAIN STREET, RM 628
HARTFORD, CT 06103
You may be represented in these proceedings, at no expense, to the
•.Government, by an attorney or other individual who is accredited to represent
persons before an Immigration Judge. Your hearing date has not been scheduled
earlier than 10 days from.the date of service of the Notice to'Appear in order'
to permit you the opportunity to obtain an attorney or representative. If you
wish to be represented, your attorney or representative must appear at the
hearing prepared to proceed. You can request an earlier hearing in'writing.'
Failure to appear'at your hearing except for exceptional circumstances
may result in one or more of the following actions: (1) You may be' taken into
custody by the Department .of .Homeland Security and held for further .
action, OR (2) Your hearing may be held in your absence under section 240(b)(5)
of the Immigration and Nationality Act. An order of removal will be entered
.. against you if the Department'of Homeland Security established by clear,
unequivocal and convincing evidence that you or your attorney have been
'.provided this notice and you are removable..
’ .IN THE EVENT YOU ARE RELEASED FROM CUSTODY, WITHIN FIVE-DAYS OF YOUR
RELEASE, YOU MUST PROVIDE TO THIS IMMIGRATION COURT A WRITTEN NOTICE/EOIR-33
: OF THE ADDRESS AND TELEPHONE NUMBER AT WHICH YOU CAN BE.CONTACTED REGARDING
THESE PROCEEDINGS. CORRESPONDENCE FROM THE-COURT, INCLUDING HEARING-NOTICES,
• WILL BE SENT TO THE MOST RECENT ADDRESS YOU HAVE PROVIDED, AND WILL BE
CONSIDERED SUFFICIENT NOTICE TO YOU. AND THESE PROCEEDINGS CAN GO FORWARO IN
YOUR ABSENCE.
.A list of free legal service providers has been given to.you. For
information regarding the status of your 'case, call toll free 1-800-898-7180 or
• 240-314-1500.

• ;

/CERTIFICATE OE/SERVICE
• THIS DOCUMENT WA|
,ie:
TO: * { 1
DATE:. / immkI
' AttS

ERVED BY: MAIL Wls' PERSdH&L SERVICE (P)
ALIEN c7o“CqsL©ctfal Officef/H )ALIEN*s ATT/REP

BY: COURT STAFF
[.) EOIR-33 [ ] EOIR-28

43a

$
DHS

(J V*—
LegaT Services List ■[ ) Other

vw

■

«

I

•
9-

9

Exhibit J

%

t

BA
§

%

b

n
</3

>>

X>

J
if

4)

s

aA

&

Vi

$

Sri

a

Kf>

tt

:]

VJ

3

£
A

E

a

&

*

5c
©
<S <
0 2
I

•m

a

oC

o $
•P4
co 5
bJD-2
‘43 ^
•*H ^
J S

a
w
V5

*5 fc.a
a
u cq

<

> O

3“

O

Cl
4)

ui

O

ft

2

o

a

u t£3
_o> w .

a

s*
S

o nz
’43 g
co
lid
W>
«M
u co
5 a <a<uN

U

J

j<5 CL, ,J
•PA

2:j

o 1
PM

m

rH
01
J3

E

fO

f-4

h
41
.Q

ro
PM

Z

PM

a8

o

<s
cc

PM

m

ro
o

PM

01
>

o

z
••

a <cC>
♦♦

CO

s
T3
a»

5

i

>
O

fl
•M
T3

v a
U <

e

cu
co

•PA

1a

a

O

$

co
e*

>>

a

a .

1a

a

*a
co

TOO/TOO®

44a

XZOfimOM XVJ T*!« ITOO/tO/SI.

tfe

000814

